                                                           Memorandum
         U.S. Department of
         Transportation
         Office of the Secretary
         of Transportation
         Office of Inspector General
                                           --   --   -


         INFORMATION: Audit Announcement:                 Small           Date:   April 23, 2007
         Community Air Service Development Program
         Project Nu- 1  07C30Q6C000
                                  /---.I



From:    David Torn u:                                                 Reply to   JA- 50
                                                                       Attn of:
         Assistant Inspector General
          for Competition and Economic ~ n a l ~ b i s

  To:   Aloha Ley
        Acting Associate Director, Office of Aviation Analysis

        In response to a request from the Assistant Secretary for Aviation and International
        Affairs, the Office of Inspector General (OIG) plans to conduct an audit of the Small
        Community Air Service Development Program (SCASDP).

        The SCASDP, which is administered by the Office of Aviation Analysis, was established
        in fiscal year 2000 to help small communities maintainlenhance their air service.
        Between 2002 and 2006, the SCASDP has made slightly over 180 grants totaling
        $80 million.

        The objective of this audit will be to determine the effectiveness of the SCASDP in
        helping small-hub and non-hub communities in achieving sustainable and reliable air
        service. As part of this project, we will review the SCASDP grants to determine:
        (I) which grants succeeded and which ones failed, and (2) whether certain project
        characteristics or project types lead to a greater likelihood of grant success.

        We will conduct this audit in our headquarters in Washington, D.C. The Program
        Director for this project is Mitchell Behm. If you have any questions or require
        additional information, please contact me at (202) 366-1981, or Mr. Behm at
        (202) 366-1995.


        cc:     Undersecretary for Policy, OST, S-3
                Assistant Secretary for Aviation and International Affairs, OST, X- 1
                Audit Liaison, OST, M- 1
